                               United States Attorney Benjamin B. Wagner
                                      Eastern District of California
FOR IMMEDIATE RELEASE                                                       CONTACT: Lauren Horwood
Thursday, September 29, 2011                                                    PHONE: (916) 554-2706
www.usdoj.gov/usao/cae                                                      usacae.edcapress@usdoj.gov


      FEDERAL GRAND JURY INDICTS SIX DEFENDANTS FOR FRAUDULENT
                          AIRCRAFT REPAIRS

         SACRAMENTO, Calif. — United States Attorney Benjamin B. Wagner announced that a
federal grand jury returned a 36-count indictment today charging Jerry Edward Kuwata, 60, of
Granite Bay; Michael Dennis Maupin, 58, of Arbuckle; Scott Hamilton Durham, 39, of
Roseville; Christopher Warren MacQueen, 53, of Lincoln; Douglas Arthur Johnson, 52, of
Granite Bay; and Anthony Vincent Zito, 47, of Saugus, with conspiracy and fraud involving
aircraft parts in interstate commerce, and mail fraud. The defendants are all former executives
and supervisors at WECO Aerospace Systems Inc., an FAA-certified air repair station based in
Lincoln, which was purchased in 2007 by Gulfstream Aerospace Corporation.

        The Federal Aviation Administration (FAA) regulates air travel and publishes regulations
that FAA-certified repair stations are required to follow. These regulations include the use of
parts that are approved for repairs, as well as tests and inspections that repair stations are required
to conduct before a repaired part can be returned and reinstalled into an aircraft.

        According to its repair station certificate, WECO was permitted to repair, among other
items, rotables and converters. Rotables are generally parts that convert a mechanical drive into
electrical output such as generators, alternators, and rotary and linear actuators. Converters are
components that supply electrical power to the systems on an aircraft that need it. In repairing
either of these types of parts, a certified repair station is required to use FAA-approved parts.
According to the indictment, the defendants regularly directed WECO technicians to use
unapproved parts in repairs. On one occasion, Maupin and MacQueen allegedly used a paper clip
instead of an approved part to complete a repair, and then returned that part to the customer after
certifying that the repair had been done properly.

        In addition, during the repair of an aircraft part, a certified- repair station is required to
comply with the manufacturer’s Component Maintenance Manual (CMM), a step-by-step guide
for conducting a proper repair of the part that is prepared by the manufacturer and approved by
the FAA. The CMM contains the steps that a repair shop must take to fix a part, as well as the
tests and inspections that must be done before the part can be returned to service. The indictment
alleges that the defendants regularly failed to follow the manufacturer’s CMMs. Indeed, as
alleged in the indictment, the defendants did not even have the equipment needed to perform
many of the tests required by the CMMs. According to the indictment, the defendants
nonetheless performed repairs or directed WECO technicians to perform repairs of parts and
returned those parts to customers, falsely certifying for each one that the part had been repaired in
accordance with FAA regulations.
         There have been no known instances in which a fraudulent WECO repair resulted in an
aircraft accident. Upon learning of the allegations, the FAA issued an emergency order
suspending WECO’s repair station certificate. In addition, since finalizing its purchase of WECO
in 2008, Gulfstream has fully cooperated with law enforcement in the investigation and
prosecution of this case. The conduct alleged in the indictment occurred prior to Gulfstream’s
acquisition of WECO, and none of the defendants is currently employed at WECO.

        “The indictment alleges that these defendants knowingly cut corners in repairing aircraft
parts and concealed the fact that they were not complying with FAA regulations. While it is
fortunate that there are no aircraft crashes known to be associated with faulty repairs conducted
by these defendants, their alleged conduct needlessly took risks with the safety of persons who
used aircraft that they repaired,” said U.S. Attorney Wagner. “FAA regulations are intended to
ensure the safety of air travel, and those who disregard them in order to increase profits should
face serious consequences.”

        “The indictment handed down today reflects the strong commitment of the Department of
Transportation (DOT) and its Office of Inspector General to ensuring the safety of the nation’s
air transportation system,” said Hank W. Smedley, DOT OIG Special Agent-in-Charge.
“Working with the Federal Aviation Administration and our law enforcement and prosecutorial
colleagues, we will continue to vigorously pursue those who violate criminal laws, defraud the
government, and undercut the integrity of our safety programs.”

         Herb Brown, Special Agent in Charge of the Sacramento FBI, said: “It is appalling that
these defendants would put financial gain and reward ahead of the safety and well-being of the
many people who could have fallen in harm’s way as a result of these fraudulently repaired
airplane parts. Everyone that boards or operates an aircraft, as well as the communities that
aircraft fly over, should have peace of mind that all safety regulations and guidelines have been
followed. The FBI will continue to work with our partners to ensure that aircraft parts companies
are properly supplying approved aircraft parts for the safety of all.”

        This case is the product of an extensive investigation by the Inspector General for the
Department of Transportation and the Federal Bureau of Investigation, along with the Inspectors
General of the Department of Homeland Security, and Department of Defense. Assistant United
States Attorney Kyle Reardon is prosecuting the case. Former Eastern District of California
Assistant United States Attorneys Laura Ferris and Sean Flynn also handled aspects of the
prosecution.

        If convicted, the defendants face a maximum statutory penalty for the conspiracy to
commit fraud and fraud involving aircraft parts in interstate commerce of 15 years in prison, a
fine of $500,000, and three years of supervised release. The maximum statutory penalty for each
count of mail fraud is 20 years in prison, a fine of $250,000, and a three-year term of supervised
release. The actual sentence, however, will be determined at the discretion of the court after
consideration of any applicable statutory factors and the Federal Sentencing Guidelines, which
take into account a number of variables.

       The charges are only allegations and the defendants are presumed innocent until and
unless proven guilty beyond a reasonable doubt.

                                              ####
